Executive Report


Return to the USDOJ/OIG Home Page


United States Marshals Service
Intergovernmental Service Agreement
For Detention Facilities With The Government of Guam
GR-90-01-006
December 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division has completed an audit of the costs incurred in relation to the Intergovernmental Service Agreement (IGA), as modified, between the United States Marshals Service (USMS) and the Government of Guam (Guam), Department of Corrections (DOC).  The IGA stipulates that Guam will house prisoners for the USMS and house detainees for the Immigration and Naturalization Service (INS) at a jail day rate 1 of $97.71 in the permanent facility and $35.99 in the tent facility. 2   The objectives of the audit were to:  (1) establish audited jail day rates for the permanent and tent facilities based on allowable incurred costs and jail days used during the audit period, and (2) determine whether Guam was properly reimbursed.

For our audit period October 1, 1998 through September 30, 2000, the USMS paid Guam  $5,566,351 for 56,958 3  jail days.  Further, the INS paid Guam $7,887,234 for 179,085  4 jail days.  Overall, the USMS and the INS paid Guam a combined total of $13,453,585 for the audit period.

As a result of inadequacies with Guam's accounting records, we used source documents to determine the total cost incurred by the DOC.  We determined the total cost incurred by the DOC to be $35,699,841 for the audit period.  We then determined the allowability of these costs, determined the total inmate population for the specific facilities, developed audited jail day rates, and determined the accuracy of the reimbursements made in comparison to the audited jail day rates for the period audited.
 
Based on our audit, we determined that:

Total costs incurred included $2,779,732 in audit exceptions.

	Guam received $494,939 in federal grants and rental income directly related to the DOC that was credited against total allowable operating costs.

	The audited jail day rates for the permanent and tent facilities were $60.31 and $29.03, respectively.  Therefore, the USMS overpaid Guam $2,131,214 and the INS overpaid Guam $1,477,910 for detention services.

	If the audited jail day rate for the permanent facility is used in the future and the average annual jail days utilized by the USMS and the INS remain constant, the Department will realize annual savings of $3,331,106 over current payment rates.

These findings are described in detail in the Findings and Recommendations section of this report.  Our audit scope and methodology appear in Appendix II.


Footnotes

Essentially, a jail day is the equivalent of one person incarcerated for one day and begins on the date of arrival, but does not include the date of departure.

For this report, we consider the Adult Correctional Facility in Mangilao (excluding the tent facility) and the Agana Detention Facility to be the "permanent facility."  The tents and related amenities that were located on the compound of the Adult Correctional Facility to temporarily house detainees for the INS are considered to be the "tent facility."

The 56,958 total jail days consisted of 649 jail days for juveniles and 56,309 for adults.

The 179,085 total jail days consisted of 392 jail days for juveniles, 155,722 for male detainees, and 22,971 for female detainees.